<html>
<title> - SPREAD OF INVASIVE SPECIES; CONVEYANCE OF LAND TO COFFMAN COVE, AK; AMEND PUBLIC LAW 97-435; LAND EXCHANGE IN LINCOLN NATIONAL FOREST; AND CONVEYANCE OF LAND IN CLARK COUNTY, NV</title>
<body><pre>[Senate Hearing 109-347]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-347
 
  SPREAD OF INVASIVE SPECIES; CONVEYANCE OF LAND TO COFFMAN COVE, AK; 
AMEND PUBLIC LAW 97-435; LAND EXCHANGE IN LINCOLN NATIONAL FOREST; AND 
                 CONVEYANCE OF LAND IN CLARK COUNTY, NV

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   on
                                     

                  S. 405                         S. 1522

                  S. 1541                        S. 1548

                  H.R. 482


                                     

                               __________

                            NOVEMBER 2, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

26-821                 WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001








               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                CONRAD R. BURNS, Montana, Vice Chairman

CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
JAMES M. TALENT, Missouri            DANIEL K. AKAKA, Hawaii
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
GEORGE ALLEN, Virginia               DIANNE FEINSTEIN, California
                                     MARIA CANTWELL, Washington

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Frank Gladics, Professional Staff Member
                    Scott Miller, Democratic Counsel




















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator From Hawaii..................     2
Berkley, Hon. Shelley, U.S. Representative From Nevada...........    23
Cameron, Scott J., Deputy Assistant Secretary for Performance, 
  Accountability, and Human Resources, National Forest System, 
  Forest Service, Department of the Interior.....................  3,12
Cantwell, Hon. Maria, U.S. Senator From Washington...............    20
Craig, Hon. Larry E., U.S. Senator From Idaho....................     1
Manning, Gloria, Associate Deputy Chief, National Forest System, 
  Forest Service, Department of the Interior.....................    14
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................    22
Neugebauer, Hon. Randy, U.S. Representative From Texas...........    22
Reid, Hon. Harry, U.S. Senator From Nevada.......................    21
Walker, Randall H., Director of Aviation, Clark County, Nevada...    23

                                APPENDIX

Responses to additional questions................................    27



















  SPREAD OF INVASIVE SPECIES; CONVEYANCE OF LAND TO COFFMAN COVE, AK; 
AMEND PUBLIC LAW 97-435; LAND EXCHANGE IN LINCOLN NATIONAL FOREST; AND 
                 CONVEYANCE OF LAND IN CLARK COUNTY, NV

                              ----------                              


                      WEDNESDAY, NOVEMBER 2, 2005

                               U.S. Senate,
            Subcommittee on Public Lands & Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington D.C.
    The committee met, pursuant to notice, at 3 p.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Larry Craig 
presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

     Senator Craig. Good afternoon, everyone. I'd like to thank 
you all for attending and my apologies for running a few 
moments late. To be honest I lost track of time. I'm sorry.
    Let me first welcome our witnesses. I would like to welcome 
Gloria Manning, Associate Deputy Chief for our National Forest 
System, from the U.S. Forest Service, and Scott Cameron--Scott, 
good to see you--Deputy Assistant Secretary for Performance 
Accountability and Human Resources, from the Department of the 
Interior.
    We thank you for coming to testify on the bills that are 
before this committee. We will be taking testimony on S. 405, a 
bill introduced by Senators Reid and Ensign to provide for the 
conveyance of certain public lands in Clark County, Nevada, for 
use as a heliport; S. 1541, a bill introduced by our colleague, 
who is here, Senator Danny Akaka, to provide, conserve and 
restore public lands, administered by the Department of the 
Interior or the Forest Service, and adjacent lands through 
cooperative cost share grants to control and mitigate the 
spread of invasive species and for other purposes; S. 1548, a 
bill introduced by Senator Murkowski to provide for the 
conveyance of certain Forest Service lands in the city of 
Coffman Cove, Alaska; S. 1552, a bill introduced by Senator 
Cantwell to amend Public Law 97-435 to extend the authorization 
for the Secretary of the Interior to release certain conditions 
contained in a patent concerning certain lands conveyances by 
the United States to Eastern Washington University until 
December 31, 2009; and last, H.R. 482, a bill introduced by 
Representative Neugebauer to provide for a land exchange 
involving Federal lands in the Lincoln National Forest in the 
State of New Mexico, and for other purposes. But before we get 
to our witnesses I'd like to turn to Senator Akaka for opening 
statements he would like to make. None of the rest of our 
colleagues are here, so Danny, let me turn to you before we 
take testimony.

      STATEMENT OF THE HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you. Thank you very much, Mr. 
Chairman. I love to work with you, and here we go again on this 
one. I want to thank you for holding this hearing, which 
includes my invasive species bill, which is S. 1541, the Public 
Lands Conservation and Protection Act. Its acronym is PLPCA, so 
if you don't mind I'll just call it the ``invasives bill.''
    Mr. Chairman, I know that you and I share a mutual interest 
in this topic because of your strong leadership on the weed 
bill, of which I was a co-sponsor. Invasive species can be 
economically devastating on grazing lands and in forest and 
timber areas. So I was very pleased when the weed bill was 
enacted in 2004, thanks to the chairman.
    Public lands are under significant threat from invasive 
species of all types. This bill provides a framework for 
helping States, and local groups in partnership with the 
Federal Government, to address the serious economic and native 
habitat threats from a broad range of terrestrial invasive 
species such as amphibians, insects, reptiles and 
subterrestrial animals, such as nematodes.
    My invasive bill, S. 1541, authorizes the major Federal 
land management agencies to undertake a competitive grants 
program to assist States, counties, non-profits and private 
landowners in partnership with the Federal Government to 
conduct assessments, control projects and rapid response 
eradication projects for invasive species. There are grants for 
three types of activities: voluntary State assessment of needs, 
if States have not already conducted such assessments; grants 
for results-oriented control projects to contain or eradicate 
invasives; and grants that are expedited for rapid response 
when a new species invades a State.
    My State of Hawaii has been consistent in its message that 
rapid response is necessary to help it combat new invasive 
species. The National Park Subcommittee held a field hearing on 
invasive species in and around national parks at Hawaii 
Volcanoes National Park in August. The message came through 
very clearly that there are enormous needs and challenges to 
control invasive species in and around national park lands. The 
Hawaii county-level invasive species councils testified that 
partnerships are the key to bridging jurisdictional and 
resource gaps. Partnerships help tap the collective knowledge 
of local scientists and focus problem-solving on the most 
pressing invasive species issues.
    They also help generate and leverage funding to get workers 
on the ground when Federal agencies are unable to take direct 
action. In addition, partnerships can help to protect public 
lands from invasions of exotic species as they approach the 
boundaries of national forests, parks and grazing lands.
    The field hearing made it clear that we must do more at the 
national level, both in terms of new authorizing legislation 
and increased appropriations, to allow the Federal Government 
to be a better partner with States and non-profit entities if 
we are to make a difference on this issue.
    The invasive species bill is supported by the National 
Environmental Coalition on Invasive Species. They have 
submitted testimony for the record. It is also supported by the 
Hawaii Department of Land and National Resources and the 
Department of Forestry and Wildlife, which supports the 
statewide Hawaii Invasive Species Council.
    The Council was created in 2003 by the Hawaii State 
legislature to provide cabinet-level leadership for the fight 
against invasives. The Governor subsequently committed $4 
million in new State funding to improve programs targeting 
invasive species.
    Our Federal lands in Hawaii benefit from the increased 
support to fight invasives, but more needs to be done by 
Federal agencies and through partnerships.
    Mr. Chairman, I look forward to the testimony of our 
distinguished panel of witnesses today and comments they have 
on the bill.
    Mr. Chairman, unfortunately, I must leave for another 
meeting, but I look forward to working with you and with the 
Department of the Interior and the Forest Service on addressing 
the challenges of invasive species across the Nation.
    Thank you very much, Mr. Chairman.
     Senator Craig. Senator Akaka, we can ask Scott Cameron to 
go first and give testimony on your legislation, if you wish to 
stay and ask any questions following that, and then we can 
proceed with the rest. All right? Let us do that.
    Let me introduce, once again, Scott Cameron, Deputy 
Assistant Secretary for Performance, Accountability and Human 
Resources, Department of the Interior.
    Scott, if in your testimony you would speak specifically--
well, you can go through them all, but specifically to S. 1541. 
Then we can get back to the Senator before he leaves. Please 
proceed.

        STATEMENT OF SCOTT J. CAMERON, DEPUTY ASSISTANT 
SECRETARY FOR PERFORMANCE, ACCOUNTABILITY, AND HUMAN RESOURCES, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Cameron. Yes, sir. Thank you very much, Mr. Chairman 
and Senator Akaka. Let me start off by congratulating you both 
on your leadership on what I know Secretary Norton considers to 
be an extremely important issue, invasive species.
    There are some estimates that half of our endangered 
species are there, at least in part because invasive species 
are eating them or encroaching on their habitat or otherwise 
causing problems. Invasive species cause a wide variety of 
environmental and economic problems, whether they are invasive 
animals, plants, or potentially, microorganisms as well.
    So congratulations and our thanks to both of you for 
putting a lot of your personal effort into this topic.
    Mr. Chairman, I am Scott Cameron, Deputy Assistant 
Secretary for Performance, Accountability and Human Resources 
at the Department of the Interior and I am pleased to be able 
to testify on S. 1541, the Public Lands Protection and 
Conservation Act of 2005. We recognize that invasive species 
are a significant natural resource management challenge on 
Departmental lands--indeed, all lands across the country. These 
species don't pay attention to boundary lines at all and 
therefore, we need to take a landscape approach, rather than an 
organization unit by organization unit approach, in dealing 
with them.
    We appreciate the continued interest and commitment of this 
community and Senator Akaka, in particular, in addressing the 
increasing threat of invasive species on native species and 
their habitats. The Department whole-heartedly, very strongly 
concurs with the principles embodies in this legislation, but 
we actually believe that the goals of the legislation can 
largely be met with existing authorities.
    There are three or four points that I would like to make in 
my oral testimony that are arduously covered in the written 
testimony. I assume the written testimony will be incorporated 
into the record.
     Senator Craig. Both of your full statements and testimony 
will be a part of the record. Thank You.
    Mr. Cameron. Thank you very much, Mr. Chairman. The first 
point I'd like to make is, with the exception of one of 
Interior's bureaus, all of our bureaus right now have the legal 
authority to work with partners, whether they are private 
landowners or local governments or State governments or non-
profit groups outside their borders. The one bureau that does 
not have that authority is our National Park Service. Senator 
Akaka and his colleague, Senator Wyden, introduced S. 1288, not 
too many months ago, that would fix that problem. That would 
give the National Park Service authority to work with its 
neighbors to deal with invasive species problems. And it's 
worth noting that this current liability on the part of the 
Park Service is not something that is specific to Hawaii or 
Oregon.
    I was at a meeting in Albuquerque in 2004 to talk about 
Tamarisk (salt cedar), which is a very significant problem in 
the West, and the Executive Director of the New Mexico 
Association of Conservation Districts, Debbie Hughes, came up 
to me and said, ``Gosh, I wish we had the authority to work 
with the Parks Service off of their lands. There are a lot of 
good things we could do together, but the Park Service can't 
partner with us right now.'' So, I am hoping that Debbie will 
have some conversations with Senator Bingaman and Senator 
Domenici before the committee has an opportunity to consider S. 
1288.
    But clearly, this committee's movement on S. 1288 would be 
very useful. The administration, subsequent to the introduction 
of that bill, sends up its own legislation, coincidentally. 
It's very, very similar. So, we might want to work with the 
committee to tweak S. 1288 a little bit around the edges, but 
fundamentally, it would be great if that bill could move.
    The second point I'd like to make is I agree whole-
heartedly with Senator Akaka's observations about rapid 
response and early detection. As Senator Craig knows very well, 
it's really easy to get rid of a new weed in Idaho, that's 
occupying 100 acres of land. Ones that occupies 10,000 acres of 
land or 100,000 acres of land, you've got a very different 
proposition on your hands. I have recently asked the U.S. 
Geological Survey to work with our colleague agencies in the 
National Invasive Species Council to organize a meeting next 
spring on early detection and rapid response. One of the 
problems that we have is, while we may have the authority to do 
early detection and rapid response, we don't necessarily have 
the research, the mechanisms, the systems in place to figure 
out where the problem has just popped up in time to do 
something about it.
    So, this meeting next April--and I would certainly welcome 
any participation by committee staff. In this meeting, we would 
explore how we could really work with NGO's, work with the 
State universities, work with the State governments and really 
craft a National Early Detection and Rapid Response System. 
What pieces exist now? What pieces are missing? What are the 
priority pieces to build? And it may well be that there are 
some legislative-related outcomes from that conference that 
this committee might want to explore.
    The last point I want to make on S. 1541 is that it 
addresses the fact that the administration for 2 years now has 
done, through the National Invasive Species Council, an 
interagency performance budget cross-cut. We're grateful that 
the sponsors of the bill have acknowledged that effort. I would 
anticipate, since the administration has done this for 2 years 
in a row, that we are likely to continue pursuing interagency 
performance budget cross-cut in fiscal year 2007. Assuming my 
assumption is correct, I'd like to respectively suggest that 
perhaps the most effective thing this committee could do to 
promote and enhance the value of that cross-cut might be as 
part of its own fiscal year 2007 budget oversight process, to 
perhaps have an oversight hearing on the interagency 
performance budget cross-cut on invasive species. No 
congressional subcommittee or committee has ever done that in 
the past, and frankly, nothing focuses the mind of bureaucrats 
like the prospects of a congressional oversight hearing. And it 
would be helpful to us in the political leadership of the 
administration to be able to signal to our co-workers that the 
Congress cares enough about this topic to actually have an 
oversight hearing on this invasive species cross-cut. So, I 
wanted to throw that idea out for the committee.
    That's all I had to say in my oral testimony on S. 1541.
    [The prepared statement of Mr. Cameron follows:]
  Prepared Statement of Scott Cameron, Deputy Assistant Secretary for 
  Performance, Accountability, and Human Resources, Department of the 
                          Interior, on S. 1541
    Mr. Chairman and Members of the Committee, I am Scott Cameron, 
Deputy Assistant Secretary for Performance, Accountability, and Human 
Resources, U.S. Department of the Interior. I want to thank you for 
providing the Department of the Interior the opportunity to testify 
before you regarding S. 1541, the ``Public Lands Protection and 
Conservation Act of 2005.'' We recognize that invasive species are a 
significant natural resource management challenge on Departmental 
lands, and particularly in island ecosystems like Hawaii. We appreciate 
the continued interest and commitment of this Committee, and Senator 
Akaka in particular, in addressing the increasing threat of invasive 
species on native species and their habitats. The Department concurs 
with the principles embodied in the legislation, but we believe that 
the goals of the legislation can be met within existing authorities.
    Let me begin by providing you with some background on this issue, 
followed by brief comments on the legislation.
                    programs promoting partnerships
    Over the past 75 years, we have worked extensively with our 
partners in states, tribes, with sportsmen, ranchers, and farmers, as 
well as with our colleagues at the Department of Agriculture, the Army 
Corps of Engineers, and the Environmental Protection Agency to provide 
technical assistance and grants to help states and private landowners, 
among others, achieve their land management and conservation goals, 
while providing benefits for migratory birds, fish, and other species.
    On a day-to-day basis, we work closely with nongovernmental 
organizations and private landowners to improve efforts for cooperative 
weed management in the West, water management districts in Florida, and 
small landowners everywhere who want to restore habitat for fish and 
wildlife. For example, the Olaa Kilauea Partnership on the island of 
Hawaii is a cooperative land management effort involving State and 
federal entities and willing private landowners with the goals of 
enhancing the long-term survival of native ecosystems and managing 
420,000 acres across multiple ownership boundaries. Management and 
research of this partnership are currently focused on removing or 
reducing impacts from feral animals such as pigs, invasive plants and 
non-native predators, restoring native habitat and endangered species, 
and providing education and work training in fencing, native plant 
horticulture and other conservation work to Kulani Correctional 
Facility inmates. In addition to the National Park Service, the U.S. 
Fish and Wildlife Service, and the U.S. Geological Survey within the 
Department, other partners include the Puu Makaala Natural Area 
Reserve, the Kamehameha Schools, the USDA Forest Service, and the 
Nature Conservancy. The partnership has jointly fenced 14,100 acres on 
State and private lands and eliminated the feral pig population from 
9,800 acres, while controlling feral pigs in an additional 4,300 acres.
    There are also a large number of grant programs administered by the 
Department that could be potential tools for addressing invasive 
species.
    The Department's support of the National Fish and Wildlife 
Foundation's ``Pulling Together Initiative'' and other programs also 
provides matching funds for invasive species management, leveraging 
funds from other Invasive Species Council member agencies and non-
federal partners. The cooperative conservation component of the 
challenge cost share programs in the Bureau of Land Management, NPS, 
and FWS also emphasize building partnerships for the conservation of 
natural resources and provide expanded opportunities for land managers 
to work with landowners and others to form creative conservation 
partnerships.
    Through the Secretary's Cooperative Conservation Initiative, bureau 
matching funds are made available to landowners and other cooperators 
at state, tribal, and local levels. Through partnerships built by 
programs in this initiative, the Department's land managers can work 
with landowners and other citizen stewards to tackle invasive species, 
reduce erosion along stream banks, or enhance habitat for threatened 
and endangered species. Among other things, in fiscal year 2005 we have 
funded through this initiative projects that are aimed at the 
eradication and control of tamarisk, Russian olive, and other invasive 
plants, and reclamation of impacted lands. Some of these projects, such 
as the Moab Partners for Restoration, target community and youth 
projects.
    Our State and Tribal Wildlife Grants programs are designed to 
provide financial assistance for development and implementation of 
state-or tribally-directed programs and individual projects that 
address the needs of the species and habitats most in need of 
conservation, address the species conservation needs that are most in 
need of funding, and leverage federal funding through cost-sharing 
provisions. These programs exemplify our cooperative conservation 
approach by helping states tailor conservation efforts so that they 
best fit local conditions, and provides yet another tool for states to 
use to address the significant impacts of invasive species on native 
habitats.
    FWS's Partners for Fish and Wildlife, which promotes private 
landowner cost-share projects for habitat restoration, includes funds 
targeted for control of invasive plants and subsequent restoration. The 
Partners Program has worked with private landowners across the Nation 
to remove, burn, biologically control, and otherwise combat invasive 
plants on thousands of acres of wetlands and upland. This control and 
management of invasive plants is also part of BLM's Partners Against 
Weeds Strategy Plan, BLM's Strategic Plan, and the National Fire Plan. 
The Partners Against Weeds program funds cooperative efforts with 
landowners to control invasive species and cooperative outreach and 
education projects with schools and local and county governments.
    Departmental bureaus also partner with other federal and non-
federal entities on research projects. The NPS, U.S. Geological Survey, 
and Bureau of Reclamation partner with the Agriculture Research Service 
and the U.S. Forest Service, both within the Department of Agriculture, 
and university scientists to develop and test biological control 
agents, to conduct studies of stream flow management for vegetation 
control, and on studies of hybridization to better predict the 
potential future spread of invasive species. The USGS also has 
partnerships with state and county weed departments, the National 
Aeronautics and Space Administration, and others aimed at mapping 
currently invaded sites and identifying new invasions.
    Finally, the BOR leads, along with USDA's Agricultural Research 
Service, the Saltcedar Biological Control Consortium, a task force 
comprised of over 40 agencies, and BOR, in collaboration with Los 
Alamos National Laboratory, also develops new technologies for 
determining the amount of water lost from the Rio Grande River due to 
tamarisk and for restoration potential based upon soil salinity and 
chemical composition.
    As you can see, cooperative conservation through the use of 
partnerships and challenge cost-share funding has long been a hallmark 
of the Department's approach to invasive species control and 
management.
                  crosscut budget for fiscal year 2006
    The Administration is also working toward an interagency approach 
to invasive species control and since the 2005 budget has presented a 
unified invasive species performance-based crosscut budget through the 
National Invasive Species Council. Through this interagency effort, 
Council agencies work together to develop common goals, strategies, and 
performance measures. Under this performance umbrella, new and base 
funds will be applied to early detection and rapid response as well as 
control and management focused geographically (Florida, for example) 
and by species (Emerald ash borer and tamarisk, for example).
    While we have made significant strides, we do continue to have 
challenges in coordinating budget decisions across departments. 
However, we continue to improve this important management tool.
    In 2006, the Department will focus invasives work on three priority 
geo-regional areas that also contain an abundance of invasives targeted 
by National Invasive Species Council priorities. The bureaus submitted 
coordinated, joint budget requests for each of these areas, developed 
in each case by an inter-bureau team. Increases totaling $2.3 million 
are proposed for the three areas, and base funding will also be 
redirected to the coordinated efforts.
                     departmental views on s. 1541
    With the above discussion in mind, let me turn to S. 1541. 
Generally, the ``Public Land Protection and Conservation Act of 2005'' 
would establish grant programs to states to assist in the management of 
invasive species and would create a rapid response component allowing 
states to request assistance. Finally, the Office of Management and 
Budget, in consultation with the National Invasive Species Council, is 
to carry out a comprehensive budget analysis and summary of Federal 
programs ranked in the thematic categories of the National Invasive 
Species Management Plan (2001).
    While we appreciate the goals of the bill, we have some concerns 
with the legislation.
    First, the Department notes that almost all of the actions called 
for in S. 1541 can be achieved within existing authorities. As 
discussed in some detail above, we have and will continue to support 
state and private invasive species management activities. Both BLM and 
FWS provide funding support through cost share grant programs to 
promote work on non-federal lands. Congress has also provided authority 
for the Department, through the BLM and the FWS, to enter into 
cooperative agreements with non-federal landowners in which invasive 
species issues could be addressed. The Administration recently 
forwarded proposed legislation which provides NPS with this authority. 
Enacting this proposal would be an effective way to address lands 
neighboring national parks.
    In addition, the President signed Public Law No. 108-412 on October 
30, 2004, which provides additional authority to the Secretary of 
Agriculture under the Plant Protection Act (7 U.S.C. 7701 et seq.) to 
provide financial and technical assistance to control or eradicate 
noxious weeds. That law specifically creates a rapid response program, 
allowing the Secretary of Agriculture to enter into cooperative 
agreements with weed management entities to ensure rapid eradication of 
noxious weeds.
    We also greatly appreciate the focus this legislation places on the 
development of rapid response mechanisms in states, local governments, 
nongovernmental entities, and tribes. However, the Department has 
existing authority under which it may provide financial assistance for 
this purpose, including the general grant-making authority under the 
Fish and Wildlife Coordination Act and the Fish and Wildlife Act of 
1956 which allows the Secretary to make grants for the benefit of fish 
and wildlife.
    We recognize the need for a comprehensive view of invasive species 
programs, but the development of a crosscut budget should be the 
responsibility of the National Invasive Species Council; we cannot 
support changing this to the Office of Management and Budget, as 
proposed in S. 1541. The Council was created by Executive Order 13112 
to coordinate federal invasive species policy and programs and, as 
mentioned previously, has already developed crosscut budgets in 2005 
and 2006. The Council should retain this responsibility.
    Finally, we have concerns about the Congressional expectations that 
might arise from the sizeable authorization levels contained in this 
legislation which would authorize assessment grants at $25 million for 
FY 2006, control grants at $175 million for FY 2006, and rapid response 
assistance at $50 million for FY 2006, and ``such sums as are 
necessary'' for FYs 2007-2010. We cannot support these authorization 
levels, and note that any new funding provided for the program 
authorized by this legislation would have to compete with existing 
programs and other Administration priorities.
                               conclusion
    The Department is committed to identifying, assessing, and acting 
to address invasive species. We agree with the principles embodied in 
this legislation and will continue to work with our partners to develop 
a more effective assessment and control strategy for responding to 
animal and plant invasions. Our goal is to ensure the protection of our 
land and water resources and to promote the restoration of important 
wildlife habitat impacted by invasive species.
    Again, while we share the Committee's concerns and interest in this 
issue, we note that almost all of the actions called for in this 
legislation can be achieved within existing authorities. We offer to 
work with the Committee to ensure that existing programs and 
authorities are effectively targeted to address the Committee's 
concerns. Mr. Chairman, this concludes my statement and I am happy to 
answer any questions that you might have.

     Senator Craig. Why don't we stop you there and see if the 
Senator has any questions. I have a few, and then you can give 
the balance of your testimony and we'll turn to Gloria for 
hers. Thank you.
    Any questions of Scott?
    Senator Akaka. Thank you for the opportunity you are giving 
me to ask my questions. Thank you, Mr. Cameron. I appreciate 
the level of activity and commitment of USFS to fight against 
invasive species. There's no question in my mind that you want 
to do all you can to work on the problem.
    My question is whether you think or you believe the 
Department has been as effective as possible, given the 
authorities you currently have, in fighting invasive species in 
all States. If so, why are we still struggling to contain 
invasives on Federal lands? In particular, in Hawaii, we're 
trying to set up our own programs. As I mentioned, even the 
State, the Governor and the legislature, have set aside money 
to take care of these invasives. I think S. 1541 will provide a 
broad approach to fighting invasives of many species and the 
necessary funding to help out. So, I'd like to hear comments 
from you. It could be about the funding as well, but why is it 
that we are not really--I don't believe we are as effective as 
we can be here, at this time.
    Mr. Cameron. Senator, Mr. Chairman, I would definitely 
agree with you, Senator, that we are not as effective as we 
could be, should be, or want to be. I think we are getting 
better at it from year to year and the performance budget 
cross-cut has been a tool for doing that.
    Two years ago, for the first time ever, we actually got 
agencies to sit down and try to develop common goals, common 
strategies and common performance measures as part of this 
budget cross-cut and that itself was a watershed event. The 
product is still very much a work in progress.
    I think it's worth making the observation that invasive-
species-type projects are competing very well for funding with 
the existing grant programs of the Interior Department. We did 
a survey based on fiscal year 2004 grants for the Secretary's 
new cooperative conservation program and our preexisting 
challenge cost share grant programs. And even in fiscal year 
2004, without putting any deliberate emphasis on invasives 
projects, nationwide, invasive species issues or projects, were 
taking about 25 percent of the grant money for those two 
national grant programs. So, I think invasive species projects 
compete very well for existing funds for exactly the reasons, 
Senator, that you and the Chairman are aware of: the 
significant economic and environmental aspects.
    Clearly, whenever there is a new statutory authorization, 
particularly if it involves a lot of money, we worry about the 
expectations that that may set on the part of the Congress. 
Every dollar at Interior has to be traded off versus every 
other dollar. So, rather than creating a new grant program 
with, perhaps, a new bureaucracy to manage that grant program, 
what we are trying to do is raise the profile of the invasive 
species issues so they compete better, both on the merits and 
because of the importance of the topic within existing grant 
programs.
    Senator Akaka. I thank you for that response, Mr. Cameron. 
We still look for it, of course, and you touched on it, to 
working with private landowners in this challenge to address 
invasive species. And I hope together we can work that out 
somehow, but in the meantime, invasive species--not only in 
Hawaii, but across the country--are spreading and we need to 
get to it before it really overcomes our country. I've heard 
from my colleagues, from the ranch land types, and I was amazed 
at the kind of invasive species they have to contend with and 
they would certainly, I'm sure, support this kind of program.
    So I thank you so much for your consideration and look 
forward to working at a program that can help the Nation. Thank 
you very much, Mr. Chairman.
     Senator Craig. Senator Akaka, thank you, very much.
    Scott, let me ask a couple of questions, because these 
kinds of concerns come and they are my concerns, and weed 
management legislation that is now in place in law, that I've 
been a part of with others, I'm always cautious on the wording 
we use for how it might get interpreted somewhere down the 
line. I like to think of the Endangered Species Act, itself, 
and what was originally intended by Congress and what has 
mutated out of the courts over the years, that is now being 
used as an obstructionist piece of legislation, to stop all 
activities on public lands, in many instances or otherwise. If 
it had been used the way it was intended, it would mitigate an 
activity to protect a species, but allow activities to 
continue.
    What I am speaking of is the definition of invasive 
species. I believe in S. 1541. And in speaking of that Scott, 
you say--the term invasive species means, with respect to a 
particular ecosystem, any animal, plant, or organism or micro-
organism, including biological material of the animal, plant or 
other organism that is capable of propagating the species that 
is not native to the ecosystem, and the introduction of which 
causes, or is likely to cause, economic harm, environmental 
harm or harm to human health. Now, is there any species that 
has relocated or invaded from one continent to another that 
wouldn't fit that definition?
    Mr. Cameron. Mr. Chairman, yes, there are quite a few and 
we eat them all the time.
     Senator Craig. Well, I'm saying this with a bit a humor, 
but is the pineapple native to Hawaii?
    Senator Akaka. No.
     Senator Craig. No. That's my point.
    Mr. Cameron. Right.
     Senator Craig. No, we don't yet, but somebody might and 
that's my concern about terminology. Please proceed.
    Mr. Cameron. Mr. Chairman, I think you've hit on a very 
good point. A species that could be completely benign, say in 
New England, might cause real problems in Arizona. Senator 
Martinez's largemouth bass in Florida are just great in 
Florida, but you probably would not want to stock them on top 
of endangered salmon in the Pacific Northwest. It might have--
you might lose your salmon.
    So, a species' invasiveness is really reflected at an 
ecosystem level, a local level. And you are very right, I 
think, to be cautious and anxious about putting together a list 
of species that always and everywhere are going to be 
considered bad. I somewhat humorously responded that we eat 
wheat and we eat rice all of the time, and those are certainly 
not species that are native to North America, but they are very 
valuable and we all enjoy pineapples as well. So, to the extent 
that we can deal with invasive species issues on a local or 
regional level and resist the temptation to Nationalize our 
approach, I think we are better off.
     Senator Craig. Well, could you provide me with the 
Department of the Interior's definition of economic harm, 
environmental harm, or harm to human health?
    Mr. Cameron. We could make a run at it, Senator. I don't 
think there is enshrined in any official way a definition on 
our part, but we could certainly elaborate a bit and perhaps 
provide some examples.
     Senator Craig. Is there a plant that is introduced that is 
used to re-vegetate or, say, cut banks and highways that might 
cause some environmental harm? And how would the Department of 
the Interior utilize the definition of S. 1541 to decide how to 
balance the economic good of a plant against potential 
environmental harm that could be caused by this plant?
    Mr. Cameron. It's not an easy thing to do, Mr. Chairman, 
but what we'll ideally do is a risk assessment, where on case-
by-case basis, really a watershed-by-watershed basis, you would 
evaluate the benefits, whether they are environmental or 
economic, versus what you can infer, using hopefully some 
degree of scientific basis, the risks might be, both economic 
and environmental. So, I can certainly imaging a situation 
where, given our difficulty in using native vegetation to 
accomplish a particular programmatic need in an area, we might 
decide that the smartest thing to do under the circumstances 
would be to pick a non-native species. But then the question is 
very carefully monitoring the results of that choice to avoid 
any unintended consequences and be able to adjust for any 
unintended consequences that might arise.
     Senator Craig. There is no question. Because I am sitting 
here thinking, the Senator from Hawaii is talking about the 
concerns of Hawaii, tragically enough, and I don't mean this 
humorously at all, but we have invasive species in Idaho now, 
taking over control of land. Probably we have more land now 
invaded than is encompassed in the entire State of Hawaii. 
Idaho is not alone. Other Western States are experiencing the 
same thing and, literally for decades, public land managers 
have done little to nothing about it, for a variety of reasons.
    Now, we're attempting to contain. In some instances, we 
cannot eradicate, largely because of size and scope of it. But 
to be able to detect early is critical for a new invasion, and 
section 5 of S. 1541, the Public Land Protection Conservation 
Act, directs the Secretary of the Interior to expedite 
environmental and regulatory reviews to ensure that an outbreak 
of invasive species can be addressed within 180 days of 
notification.
    Can the Secretary complete environmental and regulatory 
reviews in 180 days now? And if not, what would have to change 
to meet these requirements?
    Mr. Cameron. Mr. Chairman, I think the honest answer is 
yes, probably, almost all of the time. I think, inevitably, 
there will be some exceptions, but as a general rule, we should 
be able to do it within 180 days. In fact, I would hope that, 
in a truly emergency situation, we could get it done in a much 
shorter amount of time than that. One of the issues, as you and 
Senator Akaka both know, Mr. Chairman, is if you're dealing 
with a plant that only, you know, increases its spread by 1 
percent a year, then you can afford to wait for 180 days or 
maybe even a year to get to the process. If you're worried 
about an invasive species whose population is going to be 
churning over once a week and the size of the area affected is 
going to quadruple in 3 months, then you've got a very 
different dynamic and you certainly have to move much more 
quickly. So, we need to understand the biology of the problem 
that we are dealing with and we need to look for ways to 
expedite in advance, as much as possible, our environmental 
compliance processing. So, we obey NEPA, obey the law that you 
set up, but still deal with the on-the-ground problem.
     Senator Craig. Section 4(c) of the bill directs the 
Secretary to publish guidelines and solicit grant applications 
within 180 days of funds being made available. Is 180 days a 
reasonable amount of time to publish guidelines and solicit 
grant applications?
    Mr. Cameron. If you are willing to live with the very real 
possibility, that the first year we do it it may not be an 
idealized, you know, perfect form, then yes, I think we can do 
that. But again, I'd like to emphasize that we have existing 
grant programs right now that are funding invasive species 
projects, and I would argue it would be simpler and 
economically more efficient, in terms of not creating a new 
bureaucracy, to use the existing grant programs that we have 
now to deal with invasive species problems.
     Senator Craig. Okay. Well, thank you. That's all the 
questions I have on 1541.
    Danny, any others? Thank you, very much, Senator.
    Scott, why don't we return now to you for any additional 
testimony. I think you have testimony on S. 405?
    Mr. Cameron. Yes, sir.
     Senator Craig. Thank you very much.
    Then, Ms. Manning, we'll turn to you.
    Please continue, Scott.

        STATEMENT OF SCOTT J. CAMERON, DEPUTY ASSISTANT 
SECRETARY FOR PERFORMANCE, ACCOUNTABILITY, AND HUMAN RESOURCES, 
             DEPARTMENT OF THE INTERIOR-- Continued

    Mr. Cameron. Okay. S. 405, the bill would convey 229 acres 
of public lands managed by the Bureau of Land Management to 
Clark County, Nevada, for use as a heliport. S. 405 would also 
impose fees on operators for all helicopter flights that occur 
over the Sloan Canyon National Conservation Area, which I 
believe is administered by BLM. The proceeds from these fees 
would be used for the management of cultural, wildlife and 
wilderness resources on public lands in the State of Nevada.
    Interior supports the goals of S. 405, but cannot support a 
conveyance of public lands that does not include a fair market 
value of return to the taxpayers for the value of those lands. 
We also have concerns about the specific helicopter flight 
paths over the Sloan Canyon National Conservation Area that the 
bill would set out. And should the committee decide to proceed 
on this legislation, we'd like to have some discussions about 
changing those flight paths so that, basically, they are not 
buzzing a herd of desert bighorn sheep in the National 
Conservation Area. We think it would be possible to avoid the 
National Conservation Area on the flight paths for the 
helicopters.
    Those are essentially our two issues, Mr. Chairman: the 
fact that the land will be conveyed without any financial 
recompense to the taxpayer and the fact that we've got this 
herd of desert bighorn sheep that having 90 or more helicopter 
flights over a day might be a bit of a difficulty.
    [The prepared statements of Mr. Cameron on S. 405 and S. 
1552 follow:]
Prepared Statement of Scott J. Cameron, Deputy Assistant Secretary for 
  Performance, Accountability, and Human Resources, Department of the 
                                Interior
                                 s. 405
    Mr. Chairman, thank you for the opportunity to appear before you 
today to testify on S. 405, a bill that would convey 229 acres of 
public lands managed by the Bureau of Land Management (BLM) to Clark 
County, Nevada, for its use as a heliport. S. 405 would also impose 
fees on operators for all helicopter flights that occur over the Sloan 
Canyon National Conservation Area (NCA) with the proceeds used for the 
management of cultural, wildlife, and wilderness resources on public 
lands in the State of Nevada. The Department supports the goals of S. 
405, but cannot support a conveyance of public lands that does not 
ensure a fair return to the public for the use of those lands.
    The BLM recognizes the massive growth occurring in Clark County and 
understands the need to accommodate local interests and tourism in a 
way that balances local needs with important environmental 
considerations. Congress chose to address these concerns through the 
Southern Nevada Public Lands Management Act (SNPLMA) and subsequent 
amendments that have established a sale boundary within which BLM has 
worked to provide public lands to accommodate the growth in and around 
Las Vegas.
    The public lands proposed for conveyance in S. 405 consist of 229 
acres that lie immediately west of the Sloan Canyon National 
Conservation Area, which includes the North McCullough Wilderness Area, 
and are bordered on the west by Interstate 15. These lands are adjacent 
to, but fall just outside of, the SNPLMA disposal boundary. The 
legislation directs the BLM to convey these lands to Clark County for 
no consideration subject to valid existing rights. The BLM, as a matter 
of both policy and practice, and in accordance with the Federal Land 
Policy and Management Act (FLPMA), generally requires receipt of fair 
market value for public lands transferred out of public ownership. This 
serves to ensure that taxpayers are fairly compensated for the removal 
of public lands from federal ownership.
    Given the high market value of these lands, we strongly recommend 
that the bill be modified to require the receipt of a fair market value 
payment for the lands to be conveyed. Alternatively and absent 
legislation, the BLM could lease these lands to Clark County under the 
existing authority of Section 302 of FLPMA. Under this scenario, the 
Department would grant a lease to Clark County and would charge an 
annual rental that reflects the market value of the land.
    S. 405 also imposes a $3 conservation fee for each passenger on a 
helicopter tour if any portion of the helicopter tour occurs over the 
Sloan Canyon National Conservation Area. The bill directs the Clark 
County Department of Aviation to collect these fees and deposit them in 
a special account in the United States Treasury to be used by the 
Secretary of the Interior for the management of cultural, wildlife, and 
wilderness resources on public land in the State of Nevada. The BLM 
supports the concept of this provision but recommends that the fees be 
adjusted for inflation and be deposited in SNPLMA's Special Account. 
This would preclude the BLM from having to establish another permanent 
operating fund with essentially the same function as SNPLMA's Special 
Account. It would also give the Secretary additional flexibilities, as 
provided for in SNPLMA, in addressing environmental needs in Nevada in 
addition to those defined in the bill.
    While the Department defers to the Federal Aviation Administration 
(FAA) regarding safety and other airspace issues, we note that the FAA 
generally opposes legislative mandates for specific flight paths. The 
Department of the Interior also has concerns about the flight path 
identified in this legislation. The flight path as identified in the 
bill, and the anticipated frequency of flights, would greatly impact 
the very wilderness characteristics and visitor use values that the 
Congress sought to protect and preserve when it established the Sloan 
Canyon National Conservation Area and the North McCullough Wilderness 
Area in the Clark County Conservation of Public Land and Natural 
Resources Act of 2002. These areas contain sites frequently used by 
Native Americans and others for religious ceremonial purposes. They 
also provide important migration corridors and resting, breeding, and 
feeding grounds for desert bighorn sheep, which are a special status 
species in Nevada. Moreover, visitor solitude and quality recreation 
experiences would be diminished.
    The Department of Justice advises that it has concerns regarding 
inconsistencies in the bill which we would like to work with the 
Committee to address.
    Thank you for the opportunity to testify on this bill. We look 
forward to working with the Committee to resolve the issues discussed 
above and address the needs of local communities and critical 
environmental issues in the State of Nevada. I will be happy to answer 
any questions.
                                s. 1552
    Thank you for the opportunity to present the views of the 
Department of the Interior on S. 1552. This bill would amend P.L. 97-
435 by extending until December 31, 2009, authorization for the 
Secretary of the Interior to release a reversionary interest contained 
in the patent of lands conveyed by the United States to Eastern 
Washington University. S. 1552 leaves untouched the provisions in P.L. 
97-435 that protect the public interest and ensure that any transaction 
is compatible with the education and recreation purposes of the 
original patent. We therefore do not object to enactment of S. 1552.
    In 1961, the Bureau of Land Management issued a patent (#1216646) 
to Eastern Washington University for 21 acres of land on Badger Lake, 
Washington, under the authority of the Recreation and Public Purposes 
(R&PP) Act, as amended (43 U.S.C. 869 et seq.). As is standard in 
patents issued under the R&PP Act, this patent conveyed a restricted 
title, including the condition that the lands would revert to the 
United States if either the University or any successor used the land 
for other than recreational and educational purposes or attempted to 
transfer title to the land.
    By 1979, the University concluded that the 21 acres were unsuitable 
for the school's purposes and sought Congressional assistance in 
exchanging the 21 acres for lands adjacent to the campus. On January 8, 
1983, P.L. 97-435 was enacted. It provided a five-year period--which 
expired in January of 1988--during which the University would be 
allowed to sell or exchange the Badger Lake land for property more 
suitable to its needs, and directed the Secretary of the Interior to 
release the reverter provision so the lands could be sold or exchanged.
    P.L. 97-435 also contained provisions to address the concerns of 
the Department of the Interior regarding the protection of the public 
interest (exchange or sale to be at fair market value) and to ensure 
that any transaction would be as compatible as possible with the intent 
of the initial R&PP grant (the reversionary interest currently on the 
land held by the university to be placed on any land either received in 
exchange or purchased with the proceeds from the sale of the land). 
Also, as required by P.L. 97-435, the University and the Secretary 
concluded an agreement in 1985 to implement the law.
    No sale or exchange of the land occurred during the five year 
period allowed under P.L. 97-435. S. 1552 would provide for a new 
deadline of December 31, 2009, to provide an opportunity for Eastern 
Washington University to locate land suitable for its needs.
    I would be glad to answer any questions.

     Senator Craig. Thank you very much. Now, let's turn to 
Gloria Manning, Associate Deputy Chief of the National Forest 
Systems, USDA Forest Service. Welcome.

 STATEMENT OF GLORIA MANNING, ASSOCIATE DEPUTY CHIEF, NATIONAL 
                FOREST SYSTEMS, FOREST SERVICE, 
                   DEPARTMENT OF AGRICULTURE

    Ms. Manning. Thank you, Mr. Chairman. Originally, I was 
going to give testimony on S. 1541, the Public Land Protection 
and Conservation Act of 2005. But in the interest of time, and 
since The Department of the Interior has given the lead, I 
think it would be--if you would just accept my written 
testimony, we would leave it at that. If that's okay.
     Senator Craig. Okay. We'll do that. Thank you.
    Ms. Manning. The next bill that I'd like to testify on is 
S. 1548, Coffman Cove. This bill would convey a portion of a 
15-acre Forest Service administrative site situated in the 
center of a small Alaskan community, Coffman Cove, to the city 
of Coffman Cove. The bill directs the Secretary of Agriculture, 
without consideration, to convey fee simple title to 12 acres 
of the administrative site to the city.
    The Department objects to S. 1548 on the basis of long-
standing policy that the Government receives market value for 
such conveyances. However, the Department is sympathetic to the 
needs of the city of Coffman Cove to control the future 
development of its future downtown area.
    The Forest Service played a central role in the development 
of the community. In the 1960's, Coffman Cove was a logging 
camp and work site. Logs were harvested from the surrounding 
Tongass National Forest. Eventually, the community developed 
around the Forest Service administrative site.
    Should the subcommittee choose to move the bill, the 
Department would like to work with the subcommittee on 
amendments that would improve the accuracy and management 
efficiency.
    The second bill is H.R. 482, the Pine Springs Land 
Exchange. H.R. 482 would direct the Secretary of Agriculture to 
exchange with the Lubbock Christian University all right, title 
and interest in approximately 80 acres of National Forest 
System land within the Lincoln National Forest, New Mexico, 
upon receipt of acceptable title to approximately 80 acres of 
non-Federal land. The university has operated a summer camp in 
the Lincoln National Forest for over 40 years on 40 acres that 
it owns. The University seeks to exchange 80 acres that it owns 
elsewhere in the forest for 80 acres immediately adjacent to 
the camp that they now manage. The bill directs that the 
exchange be equal in value, that the appraisal conform to the 
uniform appraisal standards for Federal land acquisition, and 
that the proponent of the exchange and the United States share 
the costs of implementing the exchange equally.
    While the Department is not opposed to the exchange, we 
would like to work with the subcommittee and the bill's 
sponsors on amendments to insure that land management issues 
related to floodplains and wetlands are adequately addressed.
    This concludes my statement and I would be happy to answer 
any questions you may have. Thank you.
    [The prepared statement of Ms. Manning follows:]
Prepared Statement of Gloria Manning, Associate Deputy Chief, National 
 Forest System, Forest Service, Department Of Agriculture, on S. 1541, 
                         S. 1548, and H.R. 482
    Mr. Chairman: Thank you for the opportunity to appear before you 
today to provide the Department views on S. 1541, the ``Public Land 
Protection and Conservation Act of 2005''; S. 1548, to provide for the 
conveyance of certain Forest Service land to the city of Coffman Cove, 
Alaska; and H.R. 482, to provide for a land exchange involving Federal 
lands in the Lincoln National Forest in the State of New Mexico.
            s. 1541--public land protection and conservation
    S. 1541 would establish a new grant program to assess and control 
the spread of invasive species across the United States, and would 
authorize financial assistance to respond rapidly to outbreaks of 
invasive species. The Department concurs with the principles embodied 
in the legislation, but we believe that the goals of the legislation 
can be met within existing authorities.
    The assistance program that this legislation would establish 
consists of several elements. Assessment grants, administered by the 
Secretary of the Interior, would provide funds to a state to identify 
the occurrence and extent of invasive species within the state and 
develop management priorities to address them. Control grants would be 
available to public or private entities and Indian tribes to carry out, 
in partnership with a Federal agency, control projects for the 
management or eradication of invasive species on public land or 
adjacent land. This grant program would be administered by the 
Secretary of the Interior and includes a requirement to consult with 
the Secretary of Agriculture regarding projects conducted on National 
Forest System lands. A third program would authorize assistance to 
states, local governments, public or private entities, and Indian 
tribes, to rapidly respond to invasive species outbreaks. A total of 
$250 million would be authorized for these three programs for fiscal 
year 2006.
    The Forest Service, among other USDA agencies, has several 
authorities and grant programs that allow it to address the invasive 
species threat in a variety of ways. We directly manage approximately 
193 million acres across the National Forest System. We also provide 
technical assistance and administer a nationwide grant program to 
support cooperative invasive species management for all the Nation's 
forested lands--urban, state, private, federal, and tribal lands--
through our State and Private Forestry organization. The Research and 
Development organization provides solutions in addressing some of the 
most significant invasive species. Our responsibilities extend across 
the United States, from Alaska and Hawaii to the Caribbean and New 
England.
    The Forest Service's long-term vision is to halt the increasing 
threat of invasive species and begin to reduce impacts and spread of 
invasive species across the United States. The Forest Service works to 
achieve these goals by using a number of integrated techniques that 
address prevention, early detection and rapid response, control and 
management, and restoration and rehabilitation.
    The Department of Agriculture also plays a major role in all 
aspects of combating invasive species. The Government Accountability 
Office noted that in fiscal years 1999 and 2000, the Department of 
Agriculture accounted for 89 percent of all invasive species funding by 
federal agencies (GAO/RCED-00-219). Agencies within the Departments of 
Agriculture and the Interior manage the greatest number of acres (193 
million acres and 441 million acres respectively) of all federal land 
management agencies. These two departments, along with the Department 
of Commerce, co-chair the National Invasive Species Council, which 
helps to coordinate and ensure complementary, cost-efficient and 
effective Federal activities regarding invasive species.
    We recognize the need for a comprehensive view of invasive species 
programs, but the development of a crosscut budget should be the 
responsibility of the National Invasive Species Council; we cannot 
support changing this to the Office of Management and Budget, as 
proposed in S. 1541. The Council was created by Executive Order 13112 
to coordinate federal invasive species policy and programs and, as 
mentioned previously, has already developed crosscut budgets in 2005 
and 2006. The Council should retain this responsibility.
    In addition, we have concerns about the Congressional expectations 
that might arise from the sizeable authorization levels contained in 
this legislation which would authorize assessment grants at $25 million 
for FY 2006, control grants at $175 million for FY 2006, and rapid 
response assistance at $50 million for FY 2006, and ``such sums as are 
necessary'' for FYs 2007-2010. We cannot support these authorization 
levels, and note that any new funding provided for the program 
authorized by this legislation would have to compete with existing 
programs and other Administration priorities.
    We commend the Subcommittee for recognizing the ecological problems 
posed by invasive species. The Subcommittee has recognized that the 
invasive species challenge to our Nation is enormous, and land managers 
and communities are using available resources to address it. We agree 
with the principles embodied in this legislation and will continue to 
work with our partners to develop a more effective assessment and 
control strategy for responding to animal and plant invasions. Our goal 
is to ensure the sustainability of our land and water resources and to 
promote the restoration of important wildlife habitat impacted by 
invasive species.
    In summary, while we concur with the principles embodied in the 
legislation, we note that almost all of the actions called for in this 
legislation can be achieved within existing authorities. We offer to 
work with the Committee to ensure that existing programs and 
authorities are effectively targeted to address the Committee's 
concerns.
                         s. 1548--coffman cove
    S. 1548 would convey a portion of a 15-acre Forest Service 
administrative site situated in the center of a small Alaskan 
community, Coffman Cove, to the City of Coffman Cove. The bill directs 
the Secretary of Agriculture, without consideration, to convey fee 
simple title to twelve acres of the administrative site, to the City.
    The Department objects to S. 1548 on the basis of long-standing 
policy that the government receives market value for such conveyances. 
However, the Department is sympathetic to the needs of the City of 
Coffman Cove to control the future development of its future downtown 
area.
    The Forest Service played a central role in the development of the 
community. In the 1960's, Coffman Cove was a logging camp and work 
site. Logs were harvested from the surrounding Tongass National Forest. 
Eventually, the community developed around the Forest Service 
administrative site.
    In 1986, the State of Alaska received lands surrounding the Coffman 
Cove administrative site as part of its statehood entitlement. Over 
time, a decrease in timber sale activity led to a diminished need for 
the Forest Service administrative site. Within the last six years, all 
buildings have been removed from the site.
    Coffman Cove was incorporated in 1989, and is currently home to 
about 200 residents. The City is seeking to diversify its economic base 
in response to changes in the management of the surrounding Tongass 
National Forest and other economic conditions. With the development of 
a new ferry terminal adjacent to the Forest Service administrative 
site, economic opportunities for the City to develop commercial 
operations and tourism support facilities are improving. However, the 
location of the Forest Service parcel in the center of town, along the 
main street bisecting the town and near the ferry terminal, presents a 
significant obstacle to Coffman Cove's efforts to more fully develop 
and diversify its economy and design its future downtown. The location 
of most of the parcel also makes it difficult and inefficient for the 
Forest Service to adequately manage the site.
    Should the Subcommittee choose to move the bill in spite of these 
concerns, the Department would like to work with the Subcommittee on 
amendments that would improve accuracy and management efficiency.
                  h.r. 482--pine springs land exchange
    H.R. 482 would direct the Secretary of Agriculture to exchange with 
the Lubbock Christian University all right, title and interest in 
approximately 80 acres of National Forest System land within the 
Lincoln National Forest, New Mexico upon receipt of acceptable title to 
approximately 80 acres of non-federal land. The University has operated 
a summer camp in the Lincoln National Forest for over 40 years on 40 
acres that it owns. The University seeks to exchange 80 acres that it 
owns elsewhere in the Forest for 80 acres immediately adjacent to its 
existing camp. The bill directs that the exchange be equal in value, 
that the appraisal conform to the uniform appraisal standards for 
Federal Land Acquisition and that the proponent of the exchange and the 
United States share the costs of implementing the exchange equally.
    The Forest Service and Lubbock Christian University have discussed 
an administrative land exchange since 2001, roughly comprising the 
lands described in the bill. While the Department is not opposed to the 
exchange, we would like to work with the Subcommittee and the bill's 
sponsor on amendments to insure that land management issues related to 
floodplains and wetlands are adequately addressed.
    This concludes my statement, I would be happy to answer any 
questions that you may have.

     Senator Craig. Gloria, thank you. Let me start with the 
land exchange. Can you review the history of this proposed land 
exchange for the committee? When did the proposal first surface 
with Lincoln National Forest? When did the administrative 
process break down? Do we know why the proponents of exchange 
gave up on the administrative process? And in the absence of a 
legislative exchange, how long would it take to complete the 
administrative process? Walk me through that, if you can.
    Ms. Manning. We were first contacted in 1999, but not with 
a formal proposal. I think it was either 2000 or 2001, when we 
first got the formal proposal. We had been working, doing the 
analysis, but the university thought that it would expedite the 
exchange, if they were to go legislatively. There were some 
discrepancies in a previous appraisal, in the one we did in 
2001, so we had to work through that and that took some time. 
But, from what I understand, this is not a controversial 
exchange. We haven't done any work yet, but we understand that 
one of the trustees of the university had a legislative 
exchange before and he thought this would expedite the process.
     Senator Craig. Okay. Well, the reason I asked those 
questions, it seems like--well, I'm told that about 6 percent 
of all the land exchanges accomplished by the Forest Service 
are legislated. We have seen a number of bills in the last 2 
years where relatively small exchanges are not implemented 
quickly enough to accommodate the needs of the proponents of 
the exchange.
    I would like you to provide the committee with a 
legislative drafting service that provides steps we can take to 
expedite the Forest Service's administrative land exchange 
process. I'm growing increasingly confused, as my colleagues 
are, that very small parcels to be exchanged, that seem without 
conflict, that make sense on the landscape, just grind 
phenomenally slowly through the bureaucratic process. How do we 
fix that? And that is the question I am asking, that you might 
help us look at your process and say, where can we still meet 
all of our needs and not take 2 or 3 years? Because what's 
happening is frustration. Oh well, if we can't get them to work 
this in 3 or 4 years, then we will get it legislated. I hear 
that quite common now. I have people coming to me saying, the 
agencies tell us, well, you know what, yes, it's the right 
thing to do, but it's a nearly impossible thing to get through 
the system, so why don't you go have your congressman legislate 
it?
    Ms. Manning. Yes, it does take, on the average, about 2.5 
years to get an exchange done.
     Senator Craig. Well, let's reduce it to 1.5. Show us how 
you can do that.
    Ms. Manning. We'd like to work with you there, if it were 
just the exchange laws, but we have a lot of other laws that we 
have to adhere to and we when we do the appraisal, if we find 
title discrepancies, we go back and forth. If we change 
boundaries, we have to adhere to NEPA, the Endangered Species 
Act, FLPMA, all of those laws, and if something happens with 
one of them, it sometimes takes us back to the beginning and we 
start all over again.
    But we are willing to work with the committee to see what 
areas that we can expedite, because we, too, would like to 
expedite the process.
     Senator Craig. Well, let's take a look at it and see if 
there is something we might not be able to do, at least, with 
sizes of exchanges and all of that. When we are dealing with 
relatively small exchanges, that really would have little to no 
impact on or an accumulative effect on a broader landscape, we 
ought to try to give some convenience there.
    Can you tell me what the fiscal year 2005 budget for the 
Thorn Bay Ranger District was?
    Ms. Manning. I think it was approximately $3 million.
     Senator Craig. I see, in your testimony, the normal call 
by the administration is to require compensation for land. I 
also see that you would like Congress to withhold three acres 
for the Forest Service to use as an administrative dite. How 
much money is the Thorn Bay Ranger District willing to pay the 
city of Coffman Cove for the three acres they would like the 
Congress to withdraw, in the event we give the city of Coffman 
Cove the entire 15-acre parcel?
    Ms. Manning. That's quite a question, sir.
     Senator Craig. Let's make a deal.
    Ms. Manning. Well, presently, the 15 acres is no longer 
being used as an administrative site. We wanted to withhold 
three acres, so that we could help with visitor questions and 
for public use.
    However, if the committee sees fit to give the land to 
Coffman Cove, we would not be interested in purchasing three 
acres from Coffman Cove.
     Senator Craig. Well, I thought I'd put that deal on the 
board. Thank you very much for your testimony.
    Scott, a couple of questions about the Clark County 
heliport conveyance. This bill requires the Department to give 
229 acres of BLM land to Clark County, for use as a heliport at 
no cost to the county, but the Secretary of the Interior is 
required to cover administrative costs of the conveyance.
    The Southern Nevada Water Authority's 2003 annual report 
shows that it receives $65 million through this Southern Nevada 
Public Land Management Act in just 1 year. I know the 
administration has expressed serious concerns with the windfall 
Nevada has gained through the Southern Nevada Public Lands 
Management Act.
    Here are my questions: How much money has been deposited in 
State and local accounts in Nevada, as a result of the Southern 
Nevada Public Land Management Act and the other similar acts 
passed by Congress over the last 10 years? Can you supply that 
for the committee?
    Mr. Cameron. Yes, I can. What I probably would do is 
present that in a detailed fashion for the record, but 
ballpark, the total collections have been about $2 billion over 
the last 10 years on the sale of BLM lands in that part of 
Southern Nevada. The Southern Nevada Water Authority has gotten 
about $200 million of that, during the period. The State of 
Nevada's General Education Fund has gotten a little bit more 
than $108 million during that period of time.
     Senator Craig. Okay. Given the revenue generated through 
the sale of lands under the Southern Nevada Public Land 
Management Act, can you give us an estimate of the value of the 
229 acres listed for conveyance in S. 405?
    Mr. Cameron. Yes, I can, at least a preliminary estimate, 
Mr. Chairman. We obviously have not done an appraisal, but 
ballpark, we are thinking the middle $50 million range. So, $55 
million, $56 million, something like that.
     Senator Craig. What would you estimate the cost of the 
administrative process might be for this conveyance, if 
Congress passes this?
    Mr. Cameron. Mr. Chairman, it would be something less than 
$1 million. You would probably use $1 million as a likely 
ceiling. It could be a lot less than that, depending upon how 
much of an easy time we have with the cultural survey, with the 
endangered species surveys, that we always have to do. So, 
somewhere less that $1 million, maybe as little as a couple 
hundred thousand dollars.
     Senator Craig. Okay. Isn't there another administrative 
process through the Federal Aviation Administration could 
convey this land to the county for an airport?
    Mr. Cameron. Yes, Mr. Chairman, there is. There is 
authority in Section 302 of the FLPMA for the county to lease 
the land. The Federal Aviation Administration also has 
authority, as I understand it, to convey the land, although I 
don't seem to have my notes on that immediately in front of me. 
But yes, there is more than one way. Let me scan through here. 
Okay, here we go. Thank you.
    The Airport and Airway Improvement Act of 1982 provides 
authority for the conveyance and title to the county, based on 
application with the Federal Aviation Administration. There is 
no payment of fair market value under those circumstances. 
There's a reversionary clause to the United States, in case the 
land ends up being used for something else, other than for the 
purpose that it was conveyed. There were, apparently, two 
conveyances like this nationwide in fiscal year 2001, another 
two in 2002, but apparently none in fiscal year 2003. I don't 
have the data with regard to fiscal year 2004 or 2005. I'd 
suggest that the committee might want to inquire of the Federal 
Aviation Administration or Clark County as to why they might 
not be availing themselves of this authority.
     Senator Craig. Well, that was my next question. Do you 
know why the process wasn't pursued for this particular 
process, the Federal Aviation Administration was not pursued?
    Mr. Cameron. No, we don't. I don't, Mr. Chairman.
     Senator Craig. Okay. Well, last, can the Department 
provide someone to provide us with a briefing--the committee 
with a briefing on the status of the Southern Nevada Lands Act, 
in the near future? You've given us a guesstimate, but we'd 
like a breakdown as to the revenue that has been realized by 
the State of the Nevada and its entities as a result of this 
particular action.
    Mr. Cameron. We've been allotted to do that. We can provide 
the numbers very quickly and schedule a discussion, actually, 
at your and your staff's convenience.
     Senator Craig. We would like that, thank you. We have a 
number of Members' statements that will be included in the 
record of this hearing, including Senator Cantwell, Senator 
Reid, Senator Murkowski and Representatives Neugebauer and 
Berkley
    [The prepared statements of Senators Cantwell, Reid, 
Murkowski, and Representatives Neugebauer and Berkley follow:]
        Prepared Statement of Hon. Maria Cantwell, U.S. Senator 
                      From Washington, on S. 1552
    Mr. Chairman and Members of the subcommittee: Thank you for taking 
the time today to hold this hearing on S. 1552. This legislation will 
extend an authorization allowing Eastern Washington University (EWU) to 
transfer the title of a small parcel of land. EWU hopes to use this 
authority to acquire land closer to its rapidly growing campus in 
Cheney, WA.
    In 1961, EWU acquired a 21-acre parcel of property near Badger 
Lake, WA from the federal government under the provisions of the 
Recreation and Public Purpose Act. The law and land patent requires EWU 
to comply with certain restrictions. First, EWU must use the land for 
recreational or educational purposes. Second, ownership of the land 
parcel reverts back to the federal government should EWU transfer the 
title to the property.
    EWU had acquired the land from the Department of Interior with 
plans to develop a retreat for its music school. The university made 
numerous improvements to the property but revised its plans to install 
permanent buildings. In 1976, the University revised its management 
plan to reflect recreation as the primary use of the land. However, 
unsupervised recreation has been considered unsafe due to the location 
of the property several miles from the EWU campus and the physical 
features of the site, including steep cliffs at the edge of Badger 
Lake.
    To address these challenges, Eastern Washington University worked 
with Washington's congressional delegation to pass legislation 
providing the university needed flexibility to deal with the land. 
During the 97th Congress, former House Speaker Tom Foley, worked to 
pass legislation that exempted the university from some of the 
conditions in the Badger Lake land patent for five years following 
enactment in 1983.
    Public Law 97-435, directed the Secretary of Interior to release 
certain restrictions placed on EWU. The law lifted restrictions that 
require the land to revert back to the federal government if used for 
purposes other than recreation or education or if EWU transfers the 
land title. The law conditions the release from the patent requirements 
upon an agreement between EWU and the Secretary committing the 
university to dispose the land only for the purpose of acquiring real 
property which is more suitable for educational and recreational 
purposes.
    Further, any property acquired by EWU will vest in the United 
States if the university uses the land for purposes other than 
recreation or education, attempts to transfer the title to the newly 
acquired land, or prohibits or restricts the use of the acquired land 
by any person because of race, creed, color, sex, or national origin.
    Unfortunately, the university was unable to find a viable buyer 
during the five years following enactment of the Foley legislation.
    I introduced S. 1552 on July 28, 2005. This legislation would 
extend the authority enacted in the Foley legislation until December 
31, 2009. Presently, EWU is a growing campus with a rapidly increasing 
student population. The university remains interested in transferring 
title to the Badger Lake land for the purposes of acquiring property 
nearer the campus to meet emerging needs. EWU believes it will be able 
to find a viable buyer should the extension of authority contained in 
this legislation be enacted.
    I am proud that Congresswoman Cathy McMorris has introduced 
companion legislation, H.R. 2100, in the House of Representatives 
during the 109th Congress. I would note for the Committee that the 
House passed identical legislation, H.R. 4596 during the 108th Congress 
on September 28, 2004. The Office of Management and Budget reported 
that enactment of H.R. 4596 would have had no affect on the federal 
budget and would impose no costs on state, local, or tribal 
governments.
    I look forward to working with the Committee to ensure favorable 
consideration of this legislation. Thank you for your attention today.
                                 ______
                                 
   Prepared Statement of Hon. Harry Reid, U.S. Senator From Nevada, 
                               on S. 405
    Thank you for your generous support and for allowing a hearing on 
this important legislation.
    The purpose of this bill is simple: It would convey about a third 
of a square mile of public land managed by the Bureau of Land 
Management to Clark County for development of a new a heliport. The 
land is located just south of the Henderson city limits and east of 
Interstate 15. The bill would also impose fees on operators for all 
helicopter flights that occur over the Sloan Canyon National 
Conservation Area (NCA), with the proceeds used for the management of 
cultural, wildlife, and wilderness resources on public lands in the 
State of Nevada. Finally, this bill would restrict helicopter operators 
to a detailed flightpath, with appropriate elevations, that will ensure 
the protection of the values found in the Sloan Canyon National 
Conservation Area and the sanity of residents who have been subject to 
the noise of the helicopters.
    Local officials in southern Nevada are committed to establishing a 
heliport within the Las Vegas Valley to preserve this quintessential 
Las Vegas experience and a strong tourism industry. The county and 
local municipalities have previously considered a site, currently in 
use as a go-kart track, near Interstate 15 near Henderson. However, 
tours originating from this location would fly over the most sensitive 
parts of the Sloan Canyon National Conservation Area, with no 
restrictions on routing or elevation. Sloan Canyon itself--one of the 
richest petroglyph sites in the Mohave Desert--would be subject to 
regular overflights. That outcome would be entirely legal, entirely 
predictable and entirely regrettable.
    In 2002, I worked closely with Senator Ensign, Congresswoman 
Berkley, Congressman Gibbons and local advocates to protect the Sloan 
Canyon area and its unique cultural resources. Through our combined 
efforts, we created the Sloan Canyon National Conservation Area and the 
McCullough Mountains Wilderness. I am proud of this accomplishment and 
believe this legislation provides protection for the precious resources 
that we worked to safeguard in 2002 while resolving the conflict 
between air tour operators and Las Vegas residents.
    This legislation would not prohibit helicopter overflights of the 
Sloan Canyon National Conservation Area. But it does ensure that such 
flights steer clear of the most sensitive and special cultural 
resources and minimize the impact on the majestic bighorn sheep and 
other wildlife that live in the McCullough Mountains.
    Importantly, my legislation also requires that every such flight 
contribute $3 per passenger to a special fund dedicated to the 
protection of the cultural, wilderness, and wildlife resources in 
Nevada. These provisions justify conveying the land to Clark County at 
no cost because they provide a stable, long-term source of funding in 
excess of the market value of the land and because the conveyance and 
use are in the public interest.
    I am hopeful that my distinguished colleagues will work with me to 
pass this important legislation during the current session.
                                 ______
                                 
 Prepared Statement of Hon. Lisa Murkowski, U.S. Senator From Alaska, 
                               on S. 1548
    Good afternoon, Mr. Chairman. One of the five bills that we will 
hear today is S. 1548 which authorizes the Forest Service to convey a 
12 acre administrative site that it no longer needs to the City of 
Coffman Cove on Prince of Wales Island in Southeast Alaska.
    The City of Coffman Cove is completely surrounded by the Tongass 
National Forest. It was born as a logging camp. However, with the 
downturn in logging on Prince of Wales Island, the community of 230 
people is looking for opportunities to diversify its economy. The 12 
acres that the Forest Service no longer needs is one of the few 
remaining pieces of property available in Coffman Cove and the property 
is located in the center of downtown.
    I understand that the Forest Service would prefer to sell the 
property rather than gift it to the City, but the plain truth is that 
the City doesn't have the money to buy it. The City's annual budget is 
on the order of $380,000--$240,000 of that comes from grants which are 
dedicated to specific purposes.
    So if we don't pass this legislation, the Forest Service gets to 
keep a piece of property it neither needs nor wants and the City of 
Coffman Cove continues to suffer from having an unproductive piece of 
land right in the center of downtown. Surely, we can do better for this 
small community, which doesn't even have a grocery store.
    I ask unanimous consent that the testimony of the Mayor of the City 
of Coffman Cove be included in the record and I look forward to hearing 
the testimony of the witnesses.
                                 ______
                                 
   Prepared Statement of Hon. Randy Neugebauer, U.S. Representative 
                        From Texas, on H.R. 482
    Chairman Craig and Ranking Member Wyden, thank you for including 
H.R. 482 on the Public Lands and Forests Subcommittee's hearing 
schedule today. I also want to thank the chairman of the full 
committee, Senator Domenici, for meeting with me to discuss this land 
exchange that takes place in his home state.
    H.R. 482 provides for a small land exchange between the Lincoln 
National Forest in New Mexico and Lubbock Christian University, located 
in my Congressional district in Texas. The legislation is cosponsored 
by Congressman Steve Pearce from New Mexico, and the House of 
Representatives passed H.R. 482 on April 12, 2005 by voice vote. I ask 
that the Senate also pass the legislation this year.
    Lubbock Christian University (LCU) owns and operates Pine Springs 
Camp, which is located on 40 acres within the Lincoln National Forest. 
LCU also owns an undeveloped 80-acre tract in the Lincoln National 
Forest a few miles northwest of the camp. This tract is fully 
surrounded by National Forest land and has limited access.
    LCU would like to expand Pine Springs Camp in order to accommodate 
the growth in the number of campers. In the past ten years, summer 
campers have increased from 650 to more than 1,250 youth. In order to 
expand the camp, the university proposes to exchange its undeveloped 
80-acre tract for up to 80 acres of National Forest land that border 
the existing camp, consisting of two 20-acre tracts and one 40-acre 
tract. Pine Springs Camp would use the land for new athletic fields 
and, in the future, for an amphitheater and new camp housing.
    LCU is a non-profit entity. Pine Springs Camp was deeded to the 
University in 1996, and has become an important part of LCU. Pine 
Springs Camp is used in the summer for ten one-week camp sessions 
staffed by LCU students and church volunteers and in the winter by 
college groups, youth groups and churches for retreats. Pine Springs 
Camp operates as a non-profit; camp fees cover operating costs, and 
camp improvements are made by volunteers and through donations.
    While LCU has initiated an administrative land exchange with the 
Forest Service, LCU, as a non-profit, is concerned with the uncertainty 
in costs and time involved in an administrative exchange. My LCU 
constituents asked me to introduce H.R. 482 because this legislation 
helps streamline the land exchange process, while still including a 
full land appraisal and review, and sets a time limit for its 
completion.
    H.R. 482 allows for a small and straightforward federal land 
exchange and provides significant benefits to both parties. A lengthy 
and expensive exchange, however, would not provide the same benefits to 
either LCU or the Forest Service.
    Without the exchange, LCU may need to sell its inholding to another 
landowner or develop it into a replacement camp, an expensive option. 
By expanding Pine Springs Camp in its existing location through 
acquisition of the federal land, LCU will have space to allow for 
future growth. By acquiring LCU's 80-acre inholding, the Lincoln 
National Forest will increase and consolidate the Forest Service's 
undeveloped land within the forest.
    Chairman Craig and Ranking Member Wyden, on behalf of my 
constituents at LCU and Pine Springs Camp, I ask that your Subcommittee 
and the full Senate Energy and Natural Resources Committee support this 
legislation and report it favorably for the full Senate's 
consideration.
                                 ______
                                 
    Prepared Statement of Hon. Shelley Berkley, U.S. Representative 
                         From Nevada, on S. 405
    Mr. Chairman: I am pleased today to join the other members of the 
Nevada congressional delegation in supporting S. 405, legislation that 
would transfer land from the Bureau of Land Management to Clark County 
for use as a heliport. I appreciate the efforts of the subcommittee in 
considering this important legislation.
    Tourism is the engine that drives the Las Vegas economy, and 
companies offering helicopter tours of the Grand Canyon are an 
important part of the Las Vegas experience. Unfortunately, the 
explosive growth in our area has made the operation of these air tour 
companies at Las Vegas' McCarran International Airport increasingly 
difficult for both the businesses themselves and for area residents who 
are impacted by the noise. Moving the heliport to a new, more remote 
location and establishing flight patterns to protect Sloan Canyon's 
wonders are both important compromises needed to reduce noise pollution 
and to ensure that our air tour operators can continue doing business 
for years to come.
    I am an original cosponsor of companion legislation approved by the 
House in May, and I urge the subcommittee to support this important 
measure. Thank you.

     Senator Craig. Thank you very much, both of you, for your 
time and your preparedness.And again, Scott, we would like this 
information in a reasonable time, as it relates to revenues, 
for the committee to be briefed.
    Mr. Cameron. We'll try to get the statistics for you by the 
end of the week and get the meeting scheduled shortly 
thereafter.
     Senator Craig. Very good. Thank you much. The committee 
will stand adjourned.
    [Whereupon at 4:10 p.m. the hearing was adjourned.]

    [The following statement was received for the record:]
  Statement of Randall H. Walker, Director of Aviation, Clark County, 
                           Nevada, on S. 405
    My name is Randall H. Walker and as the Director of Aviation for 
Clark County, Nevada I appreciate the opportunity to submit written 
testimony before the subcommittee on S. 405. The Department of Aviation 
(CCDOA) owns and operates Las Vegas--McCarran International Airport. 
McCarran Airport, fulfilling its critical role as a gateway for nearly 
50% of all visitors to Las Vegas, handled in excess of forty (40) 
million passengers in 2004. In addition, CCDOA operates a system of 
five general aviation (GA) airports providing much needed capacity 
relief to McCarran.
    I urge support for S. 405 which is urgently needed to address a 
pressing aviation issue, namely helicopter noise over residential areas 
within Las Vegas. Because of our tourism based economy, Las Vegas has 
become the primary jumping-off point for visits to the Grand Canyon 
National Park. A portion of those visits occur as helicopter air tours 
originating from McCarran airport.
    An expanding segment of the Las Vegas tourist experience is the 
Grand Canyon helicopter air tour operations which have increased by 
approximately 50% over the past three years and now exceed almost 65 
thousand operations per year. Given the number of new hotel rooms under 
construction, CCDOA can only surmise that this growth will continue 
into the foreseeable future. Below is a chart which shows the growth in 
helicopter operations from Las Vegas which traverses Tropicana and 
Charleston Boulevards, heavily populated areas of the valley.

                                       AVERAGE DAILY CORRIDOR USE--OCTOBER
----------------------------------------------------------------------------------------------------------------
                            Corridor                               2000    2001    2002    2003    2004    2005
----------------------------------------------------------------------------------------------------------------
Tropicana.......................................................    58      60      66      89      91     107
Charleston......................................................    58      66      63      83      89     105
----------------------------------------------------------------------------------------------------------------

    The helicopter air tour departure and return corridors direct the 
helicopters over older, established neighborhoods. Some 90,000+ 
residents have lived in these homes for a number of years with no 
expectation of what they are now subjected to.
    The noise is exaggerated because the helicopters must remain at a 
low altitude (as low as 800 feet above ground level) and within the 
prescribed corridors to avoid traffic conflicts with fixed-wing 
aircraft flights operating at Nellis Air Force Base, the North Las 
Vegas Airport and McCarran Airport.
    Under Federal law enacted in the early 1990's designed to prevent 
communities from imposing airline noise controls at local airports, 
CCDOA as the operator of a federally funded airport cannot prevent the 
helicopters from using McCarran Airport or in any way take an action 
that could be deemed to discriminate against the tour operators. 
Rather, CCDOA must develop an alternative heliport the operators will 
voluntarily choose to move to because they deem it to be in their best 
financial interest.
    The county's acquisition of a parcel of vacant, federally owned 
land called for in this bill is the best answer we have to this 
problem. CCDOA's intent is to construct on the site a facility to which 
the air tour operators will willingly relocate. This bill provides for 
the transfer of the 229 acres of BLM land for this purpose. This 
acreage should be adequate to support existing and future air tour 
activities plus all associated support and infrastructure facilities. 
The site is approximately 12 miles south of the Las Vegas ``Strip'' 
with surface access provided by Interstate Highway 15 and State Route 
604 (Las Vegas Boulevard South). We have reviewed many other possible 
sites including the land fill on the eastern rim of the valley and 
another site at Railroad Pass. For a variety of reasons the site 
identified in this bill is superior.
    The legislative proposal attaches a number of conditions to the 
land's transfer. These include:

  <bullet> the parcel is to be used only as a heliport;
  <bullet> the parcel is not to be disposed of by Clark County;
  <bullet> Clark County shall pay all administrative costs associated 
        with the land's conveyance from the Department of the Interior;
  <bullet> the parcel shall revert to federal ownership if the county 
        ceases to use it as a heliport in accordance with the 
        legislative intent;
  <bullet> operators at the non-urban heliport will pay a fee for each 
        passenger transported over the Sloan Canyon National 
        Conservation Area;
  <bullet> such fees as may be collected will be made available for 
        protection of natural and cultural resources within the 
        conservation area and the North McCullough Mountains Wilderness 
        Area;
  <bullet> tours originating from the non-urban heliport shall cross 
        the conservation area only within a defined, narrow, corridor 
        (Exhibit 2--Clark County Public Heliport Facility).

    The CCDOA is comfortable with each of these conditions, several of 
which reflect concerns raised by Federal land managers, Native American 
and environmental interests. CCDOA is committed to the identification, 
evaluation and, to the extent possible, the mitigation of legitimate 
environmental impacts which might be attributed to the development and 
operation of the non-urban heliport through a thorough NEPA review. In 
doing such a NEPA analysis, the county must and will consider those 
impacts associated with each alternative site, as well as the continued 
operation of helicopter air tours from McCarran International Airport.
    The undeveloped mountainous areas south of Las Vegas, including the 
Sloan Canyon Conservation Area and the North McCullough Mountains 
Wilderness Area, already experience numerous aircraft overflights. Low 
altitude McCarran, Henderson Executive and Boulder City aircraft 
operations commonly occur over these areas. This reality was 
acknowledged in the legislative language that established the 
conservation and wilderness areas just three years ago in 2002. The 
addition of the helicopter tour operations is not expected to raise 
related noise to federally established levels of significance. The NEPA 
document, which CCDOA is currently drafting together with the FAA and 
BLM, will fully consider noise and overflight impacts on sensitive 
populations in the manner prescribed by federal regulations.
    CCDOA owns the ``Go Kart/Sloan'' site, and has found it to be a 
suitable and economically viable location for the non-urban heliport. 
This site, located about 3 miles immediately north of the parcel 
detailed in the Senator's bill, was initially preferred for the non-
urban heliport. Subsequently, the community asked that the ``South of 
Sloan'' site (which has been identified in the legislation) be added to 
the environmental evaluation process. Quite frankly, the CCDOA's 
concern was and is that ``South of Sloan'' will not be available 
because it is federally owned and outside the BLM's disposal area 
boundary.
    If ``South of Sloan'' cannot be conveyed in a timely manner, if 
unreasonable restrictions are placed on its development, and/or if the 
unmitigatable environmental impacts associated with ``South of Sloan'' 
are greater than ``Go Kart/Sloan'' the CCDOA intends to proceed with 
development at ``Go Kart/Sloan''.
    Let all understand that the construction of the non-urban heliport 
within the next three to four years is needed to preclude the shifting 
of the helicopter air tour operations from McCarran Airport to the 
Henderson Executive Airport. This simple relocation of the helicopter 
tour operations to another urban airport would create new flight 
corridors over existing neighborhoods and thus only serve to shift 
noise concerns from one community to another. Clark County elected 
officials have long held that it is undesirable to take an action that 
simply shifts a burden from one set of neighbors to another.
    In conclusion, CCDOA, with support and cooperation from the 
Congress, the FAA and the BLM, has embarked on the development of a new 
non-urban heliport. The county's intent is to balance the needs and 
interests of the air tour operators, our valley's residents and the 
environmental community. There is no simple or perfect answer to the 
helicopter air tour issue faced by CCDOA. Nevertheless, my agency and 
staff has not backed away, but has attempted to forge ahead and barter 
a workable, reasonable solution. What we ask Congress for is an ability 
to obtain the 229 acres of land at the designated ``South of Sloan'' 
site if, at the end of the environmental review process, that site is 
deemed the most acceptable alternative.
    Thank you.

                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

                     Responses of Scott J. Cameron
    Question 1. Is there any language in S. 1541 that would preclude a 
private landowner, or the federal government, from using non-native 
species on their lands? Can you please comment specifically with 
respect to the definition of ``invasive species?''
    Answer. No. The bill language would not preclude a private 
landowner or the federal government from using a non-native species on 
their lands. Programs funded under S. 1541 address the relatively 
narrow class of ``invasive'' species, not the broader group of non-
native species. In order to be covered by the provisions of the 
legislation, a species must be not only non-native to a particular 
ecosystem, but also the introduction of that species must cause or be 
likely to cause economic harm or harm to human health or the 
environment. Additionally, with regard to private lands, activities 
authorized under the legislation may only be carried out with the 
consent of the private landowner.
    Question 2. The Weed Bill authorizes activities on Forest Service 
and BLM lands. How specifically does DOI address weeds not on Forest 
Service and BLM lands or lands adjacent to those lands?
    Answer. The U.S. Fish and Wildlife Service, which manages lands in 
the National Wildlife Refuge System (NWRS), and the National Park 
Service, which manages national parklands and historic sites, have 
extensive programs for managing invasive species.
    In the refuge system, control and eradication of invasive species 
is an important part of refuge management and, in many cases, part of 
day-to-day operations. In addition, the NWRS invasive species team 
developed a National Strategy for Management of Invasive Species to 
guide invasive species management in the refuge system. This strategy 
emphasizes assessment information, monitoring recommendations, and best 
management practices, and operations on refuge lands include preventive 
activities, early detection and rapid response, control and 
eradication, research and monitoring, cooperative partnerships and cost 
share projects and public education about invasive species. Integrated 
Pest Management (IPM) techniques used in the field include the 
application of chemicals, mechanical and hand removal, use of 
prescribed fires, cultural techniques, and biological control. 
Prevention efforts are significant in preventing newly discovered 
infestations from gaining a foothold in refuges. FWS has authorities it 
uses to partner with private landowners, and these can be used in 
tandem with invasives work on private lands adjacent to NWRS lands.
    The NPS uses various approaches to control invasive populations in 
national parks and protect sensitive populations from destruction by 
invasive species, including integrated pest management techniques. 
However, the NPS has no statutory authority to partner with adjacent 
landowners to address invasive species issues of mutual concern outside 
of parks. The Administration requested such authority in a proposal 
transmitted to Congress in August 2005.
    As part of the National Park Service's Natural Resource Challenge, 
a new management strategy was created for addressing invasive species 
in national parks. Modeled after the approach used in wildland fire 
fighting, field-based Exotic Plant Management Teams (EPMTs) provide 
highly trained, mobile strike forces of plant management specialists 
who assist parks in the identification, treatment, control, 
restoration, and monitoring of areas infested with invasive plants. 
There are now 16 teams covering 209 parks nationwide. This successful 
model has also been adopted by the FWS. The success of the EPMTs 
derives from accountability and its ability to adapt to local 
conditions and needs while still serving multiple units within a broad 
geographic area. Moreover, the NPS's Inventory and Monitoring (I&M) 
Program networks are helping parks develop monitoring programs for the 
detection of new invasions so a quick response can ultimately remove 
the threat before it becomes unmanageable. The information is also used 
by EMPTs for identifying treatment areas and coordinating control 
projects with parks.
    Departmental bureaus also partner with other federal and non-
federal entities on research projects. The NPS, U.S. Geological Survey, 
and Bureau of Reclamation partner with the Agriculture Research 
Service, the U.S. Forest Service, and university scientists to develop 
and test biological control agents and conduct studies of stream flow 
management for vegetation control and of hybridization to better 
predict the potential future spread of invasive species. The USGS also 
has partnerships with state and county weed departments, the National 
Aeronautics and Space Administration, and others aimed at mapping 
currently invaded sites and identifying new invasions of weeds like 
tamarisk (also known as saltcedar).
    Finally, the BOR leads, along with USDA's Agricultural Research 
Service, the Saltcedar Biological Control Consortium, a task force 
comprised of over 40 agencies, and BOR, in collaboration with Los 
Alamos National Laboratory, that also develops new technologies for 
determining the amount of water lost from the Rio Grande River due to 
tamarisk and for assessing restoration potential based upon soil 
salinity and chemical composition.
    Question 3. How does DOI address weeds not on the Federal Noxious 
Weeds list?
    Answer. We recognize that weeds can be harmful even if they are not 
formally listed as noxious. Bureau land managers partner with the U.S. 
Geological Survey and other research organizations to identify the 
invasive plants that cause the greatest damage to resources under the 
Department's jurisdiction--such as migratory birds or endangered 
species. Specific treatment plans are then developed utilizing 
currently approved integrated pest management and resource management 
protocols. Depending on the priority, treatments are targeted at the 
specific point in the life cycle when maximum control can be achieved 
while, at the same time, minimizing the harm to other resources.
    Question 4. If a species is non-native, is it necessarily an 
invasive species?
    Answer. No, relatively few non-native species are ``invasive 
species.'' According to Executive Order 13112, which guides federal 
policy on these issues, an invasive species is defined as an alien 
species--a species that is not native to a particular ecosystem--whose 
introduction does or is likely to cause economic or harm to human 
health or the environment. Many non-native species provide valuable 
food and fiber, recreational, and hobby interest for Americans without 
fear of economic harm or harm to human health or the environment. For 
example, any species under cultivation as a crop or managed as 
livestock are not commonly considered invasive species because their 
presence is economically advantageous and impacts on the environment 
are under effective control.

                                    

      

</pre></body></html>
